No. 19-333

 

IN THE
Supreme Court of the Anited States

ARLENE’S FLOWERS, INC., D/B/A ARLENE’S FLOWERS AND GIFTS, AND BARRONELLE
STUTZMAN,
Petitioners,
v,.
STATE OF WASHINGTON,
Respondent.

ARLENE’S FLOWERS, INC., D/B/A ARLENE’S FLOWERS AND GIFTS, AND BARRONELLE
STUTZMAN,
Petitioners,
v.
ROBERT INGERSOLL AND CURT FREED,
Respondents.

AFFIDAVIT OF SERVICE

I, John J. Bursch, a member of the Bar of this Court and co-counsel for
Petitioners, hereby certify that on this 18th day of June, 2021, I caused the
Supplemental Brief of Petitioners to be electronically filed with this Court and a copy
served electronically on counsel as listed below. I further certify that paper copies of
the Supplemental Brief of Petitioners will be shipped for overnight delivery via
Federal Express on the 21st day of June, 2021 to the following:

Ria Tabacco Mar Noah Guzzo Purcell

ACLU Solicitor General

125 Broad Street, 18th Floor Office of the Attorney General
New York, NY 10004-2400 1125 Washington St, SE
rmar@aclu.org P.O. Box 40100

Olympia, WA 98504-0100
noah.purcell@atg.wa.gov
Executed on June 18, 2021.

 

Gud Estey

ALLIANCE ne Poe REEDOM
440 First Street NW, Suite 600
Washington, DC 20001

(616) 450-4235
jbursch@ADFlegal.org
